USCA11 Case: 20-11689

Date Filed: 07/30/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-11689-D
SHERWOOD LARAN BOSTIC,
Petitioner-Appellant,
versus

SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS,
FLORIDA ATTORNEY GENERAL,
Respondents-Appellees.
Appeals from the United States District Court
for the Middle District of Florida
ORDER:
Sherwood Bostic moves for a certificate of appealability in order to appeal the denial of
his habeas corpus petition, filed pursuant to 28 U.S.C. § 2254. His motion is DENIED because he
has failed to make a substantial showing of the denial of a constitutional right. See 28 U.S.C.
§ 2253(c)(2). His motion for leave to proceed informa pauperis on appeal is DENIED AS MOOT.

/s/ Robert J. Luck
UNITED STATES CIRCUIT JUDGE

Case: 20-11689

Date Fled: 05/13/2020

Page: I of 2

CASE NUMBER 20-11689-D
IN THE UNITED STATES COURT OF APPEAL
FOR THE ELEVENTH CIRCUIT
SHERWOOD BOSTIC,
Appellant,
v.
SECRETARY, FLA.
DEPT. OF CORR., ET.
^L.i,

Appellee.

APPELLEE’S CERTIFICATE OF INTERESTED PERSONS
>

T

(

f

li

Pursuant to Feder al Rule of Appellate Procedure 26.1 and Eleventh Circuit Rules
\

l

i

26.1-1 and 26.1-2, the Appellee hereby certifies that the following persons have an
'i

>

c

<

interest in the outcome of this case:
Bostic, Sherwood - Appellant
Inch, Hon. Mark S. - Secretary, Florida Department of Corrections
Jordan, Bryan - Senior Assistant Attorney General, State of Florida
*

t

Moody, Hon. Ashley B. - Attorney General, State of Florida
!

i

*

Nelson, Hon. Melissa - State Attorney, Florida Fourth Judicial Circuit
r

;

I

}

r

;

Schemer, Hon. Jack M. - Circuit Court Judge, Fourth Judicial Circuit of Florida

£

u
>f ^ I -c

/ <v

/

Respectfully submitted,
ASHLEY MOODY
ATTORNEY GENERAL

v

y

/S/ Bryan Jordan
BRYAN JORDAN
Senior Assistant Attorney General
Florida Bar No. 0194603
Office of the Attorney General
PL-01, The Capitol
Tallahassee, FL 32399-1050
(850) 414-3300
(850) 922-6674 (Fax)
crimapptlh@myfloridalegal.com
COUNSEL FOR APPELLEE
[AGO# L20-1-05177)

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true and correct copy of the foregoing
APPELLEE’S CERTIFICATE OF INTERESTED PERSONS has b

MIME-Version:1.0
From:cmecf_flmd_notification@flmd.uscourts.gov
To:cmecf_flmd_notices@localhost.localdomain
Bcc :
--Case Participants:
—Non Case Participants:
--No Notice Sent:
Message-Id:<19513895@flmd.uscourts.gov>
Subject:Activity in Case 3:17-cv-00595-TJC-JBT Bostic v. Jones, et al Order
dismissing case
Content-Type: text/plain
This is an automatic e-mail message generated by the CM/ECF system.
Please DO NOT RESPOND to this e-mail because the mail box is unattended.
***NOTE TO PUBLIC ACCESS USERS*** There is no charge for viewing opinions.
U.S. District Court
Middle District of Florida
Notice of Electronic Filing
The following transaction was entered on 4/6/2020 11:59 AM EDT and filed
on 4/6/2020

Case Name: Bostic v. Jones, et al
Case Number: 3:17-cv-00595-TJC-JBT
https://ecf.flmd.uscourts.gov/cgi-bin/DktRpt,pl?337392
Filer:

Document Number: 38

Copy the URL address from the line below into the location bar
of your Web browser to view the document:
https://ecf.flmd.uscourts.gov/doc1/0471214 063 98 ? caseid=33 7 3 92 &de_seq_num=171&mag
ic num=MAGIC

Docket Text:
ORDER denying the Petition and dismissing
case with prejudice; directions to the Clerk. Signed by Judge Timothy J.
Corrigan on 4/6/2020. (JND)

3:17-cv-00595-TJC-JBT Notice has been electronically mailed to:
Bryan G. Jordan bryan.jordan@myfloridalegal.com, crimapptlh@myfloridalegal.com,
katrina.croft@myfloridalegal.com

3:17-cv-00595-TJC-JBT Notice has been delivered by other means to:
Sherwood Laran Bostic
#288203
Madison Correction Institute
Main Unit
382 SW MCI Way
Madison FL 32340

The following document(s) are associated with this transaction:
Document description: Main Document

MIME-Version:1.0
From:cmecf_flmd_notification@fImd.uscourts.gov
To:cmecf_flmd_notices@localhost.localdomain
Bcc :
--Case Participants:
--Non Case Participants:
--No Notice Sent:
Message-Id:<19517285@flmd.uscourts.gov>
Subject Activity in Case 3:17-cv-00595-TJC-JBT Bostic v. Jones, et al Judgment
Content-Type: text/plain
This is an automatic e-mail message generated by the CM/ECF system.
Please DO NOT RESPOND to this e-mail because the mail box is unattended.
***NOTE TO PUBLIC ACCESS USERS * ★ * Judicial Conference of the United States
policy permits attorneys of record and parties in a case (including pro se
litigants) to receive one free electronic copy of all documents filed
electronically, if receipt is required by law or directed by the filer, PACER
access fees apply to all other users. To avoid later charges, download a copy of
each document during this first viewing. However, if the referenced document is
a transcript, the free copy and 30 page limit do not apply.
U.S. District Court
Middle District of Florida
Notice of Electronic Filing
The following transaction was entered on 4/7/2020 10:55 AM EDT and filed
on 4/7/2020

Case Name: Bostic v. Jones, et al
Case Number: 3:17-CV-00595-TJC-JBT
https://ecf.flmd.uscourts.gov/cgi-bin/DktRpt,pl?337392
Filer:

Document Number: 39

Copy the URL address from the line below into the location bar
of your Web browser to view the document:
https://ecf.flmd.uscourts.gov/doc1/047121410174 ?caseid=3 3 7 3 92 &de_seq_num=17 3&mag
ic num=MAGIC

Docket Text:
JUDGMENT That pursuant to the Court's
order entered on April 6, 2020 the Petition is DENIED and this case is DISMISSED
WITH PREJUDICE. Signed by Deputy Clerk on 4/7/2020. (KKH)

3:17-CV-00595-TJC-JBT Notice has been electronically mailed to:
Bryan G. Jordan bryan.jordan@myfloridalegal.com, crimapptlh@myfloridalegal.com
katrina.croft@myfloridalegal.com

3:17-cv-00595-TJC-JBT Notice has been delivered by other means to:
Sherwood Laran Bostic
#288203
Madison Correction Institute
Main Unit
382 SW MCI Way
Madison, FL 32340

NJ

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
SHERWOOD BOSTIC,
Appellant,
Cir. Case No: 20-11689D
Dist. Case No: 3:17-cv-595-TJC-JBT

v.
Sec. FLORIDA DEPT. OF
CORRECTIONS, etal,
Appellee.

’Mvidiwl to Madison C.l. on

4^r"J|^sr

MOTION FOR EXTENSION OF TIME TO FILE A CERTIFIED
FINANCIAL STATEMENT OF ACCOUNT
Appellant Sherwood Bostic, an imprisoned pro se litigant hereby submits
this motion for extension of time pursuant to Fed. R. Civ. P. 6(b), and humbly asks
this Court for an extension of time to file his required financial statement of
account, up to and including August 12 ,2020 on the following good cause;
PROCEDURAL HISTORY
1. On April 6th, 2020, the U.S. District Court issued it’s order denying his
Federal Habeas Corpus 28 U.S.C. 2254.
2. On April 27th, 2020, Appellant timely filed his Notice of Appeal.
3. On May 20th, 2020, Appellant filed a Motion for Permission to Appeal in
Forma Pauperis and Affidavit to this Court.

*

4. On June 2nd, 2020, this Court through its clerk ordered Appellant in 14
days to file a certified Financial Statement, which would terminate on
June 16th, 2020.

SUPPORTING FACTS FOR RELIEF
Appellant Sherwood Bostic humbly prays that this Honorable Court will
grant him an extension of time to file his Certified Financial Statement upon this
Court order of June 2nd, 2020. Mr. Bostic states that his untimely request is due to
the COVID-19 Pandemic. This is because Florida Dept, of Corrections (FDOC) in
its Law Libraries, are holding the standards of (CDC) to the hilt. Requiring that
only (10) inmates out of hundreds are to be allowed in the law library for
deadlines.
Furthermore, he has submitted his request to (FDOC) staff for the
aforementioned required Bank Statement, back in May and is still waiting to
receive such. Thus, he is not in control of (FDOC) lack of promptness.
In closing, Mr. Bostic humbly prays that the Court will grant him up to
August 12th, 2020 to file his required Bank Statement, based upon the (FDOC) lack
of promptness to give him his requested Bank Statement for this Court. Also, the
fact that he has had a hard time to get to the law library to prepare and file this
motion. As such, he humbly prays that this Court will deem the above good cause.

u

Sherwood L. Bostic DC# 288203

■A

I HEREBY CERTIFY, under the penalty of perjury, that I placed a true
and correct copy of the foregoing document, in the hands of mailroom personnel at
Madison Correctional Institution, for mailing to the Appellee on thisfl/^ - day of
V

June, 2020.

Sherwood Bostic
DC# 288203
Madison Correctional Inst.
382 S.W. MCI Way
Madison, FL 32340

1

Case 3:17-cv-00595-TJC-JPT

Document 22

Filed 06/04/2018

Page 1 of 3 PagelD 373

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
JACKSONVILLE DIVISION

SHERWOOD LARAN BOSTIC,
Petitioner,
Case No.

v.

3:17-cv-595-J-32JBT

SECRETARY, FLORIDA DEPARTMENT OF
CORRECTIONS and ATTORNEY GENERAL
OF THE STATE OF FLORIDA,
Respondents.

ORDER
1. Petitioner’s Motions for Summary Judgment (Docs. 16, 18) are DENIED. In
determining the merits of Petitioner’s claims, the Court will consider the Petition Under 28
U.S.C. § 2254 for Writ of Habeas Corpus by a Person in State Custody (Petition I) (Doc.
1), Respondents’ Response to Petition for Writ of Habeas Corpus (Respondents’
Response) (Doc. 11), and Petitioner’s Reply to Florida Department of Corrections’
Untimely Response to Petition for Writ of Habeas Corpus (Doc. 14). See Rule 5, Rules
Governing Section 2254 Cases in the United States District Courts.
2. Petitioner’s “Notice for Writ” (Notice) (Doc. 17) is DENIED. In the Notice,
Petitioner objects to the Magistrate Judge’s order accepting the Respondents’ Response
as timely. See Doc. 12. Therefore, the Court construes the Notice as an objection filed
pursuant to Rule 72 of the Federal Rules of Civil Procedure (Rule 72). Rule 72 provides
A party may serve and file objections to [a magistrate judge’s]
order within 14 days after being served with a copy. A party
may not assign as error a defect in the order not timely

Case 3:17-cv-00595-TJC-JBT

Document 22

Filed 06/04/2018

Page 2 of 3 PagelD 374

objected to. The district judge in the case must consider timely
objections and modify or set aside any part of the order that is
clearly erroneous or is contrary to law.
Fed. R. Civ. P. 72(a); see ajso 28 U.S.C. § 636(b)(1).
Here, Petitioner’s objection is untimely. The Magistrate Judge issued the order
accepting the Respondents’ Response as timely on December 1, 2017. See Doc. 12.
Petitioner filed his objection on March 19, 2018,1 well past the fourteen-day deadline. See
Doc. 17. Nevertheless, even assuming Petitioner’s objection is timely, he has not shown
that the Magistrate Judge’s ruling is clearly erroneous or contrary to law.
3. Petitioner’s Petition for Writ of Mandamus Seeking to Compel (Doc. 19),
construed as a motion to rule on the Petition I, is GRANTED only to the extent that
Petitioner’s claims in the Petition I are under consideration, and the Court will enter a ruling
as the Court’s calendar permits.
4. Petitioner’s Notice to the Court (Doc. 20) is STRICKEN. On April 24, 2018,
Petitioner filed a Petition for Writ of Habeas Corpus pursuant to 28 U.S.C. § 2254 (Petition
II) (Doc. 20). The Petition II is identical to the Petition I, except that Petitioner has added
the date of “4-24-2018” to the last page of the Petition II, and the Petition II does not include
an attached memorandum of law. Petitioner does not provide a motion or any other
document providing an explanation for the filing of the Petition ii. Upon consideration, the

1

The Court gives Petitioner the benefit of the “prison mailbox rule.” Under the “prison
mailbox rule,” a prisoner’s pro se court filings are deemed filed on the date they are
delivered to prison authorities for mailing. See Houston v. Lack. 487 U.S. 266, 276 (1988).

2

Case 3:17-cv-00595-TJC-JBT

Document 22

Filed 06/04/2018

Page 3 of 3 PagelD 375

Court does not consider the Petition II as an amended petition or a request to amend the
Petition I and finds that the Petition II is an unauthorized filing with the Court.
DONE AND ORDERED in Jacksonville, Florida the 4th day of June, 2018.

TIMOTHY J. CORRIGAN
United States District Judge
sflc

c:

Sherwood Laran Bostic, #288203
Counsel of Record

3

USCA11 Case: 20-11689

Date Filed: 09/30/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-11689-D
SHERWOOD LARAN BOSTIC,
Petitioner-Appellant,
versus
SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS,
FLORIDA ATTORNEY GENERAL,
Respondents-Appellees.
Appeals from the United States District Court
for the Middle District of Florida
Before: GRANT and LUCK, Circuit Judges.
BY THE COURT:
Sherwood Bostic has filed a motion for reconsideration of this Court’s July 30, 2020, order
denying a certificate of appealability and leave to proceed in forma pauperis in his appeal from
the denial of his underlying 28 U.S.C. § 2255 motion to vacate. Upon review, Bostic’s motion for
reconsideration is DENIED because he has offered no new evidence or arguments of merit to
warrant relief.

